■4

ORIGINAL

&-5084

FILED
^1
£uPREMEFCTo{jRTLMgK

IN THE

SUPREME COURT OF THE UNITED STATES

Donald H. Kimball,
Petitioner,
v.

Altoona, IA. Police Department, Chief Greg Stallman (individual)
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eighth Circuit

PETITION FOR A WRIT OF CERTIORARI

Donald H. Kimball (Pro Se)
4813 Ridge Rd Suite 111-57
Douglasville, Ga. 30134
941-447-8911
dhkprose@gmail.com

QUESTIONS PRESENTED FOR REVIEW
1)

The Supreme Court recently upheld a ruling unanimously holding that the

Ninth Circuit "departed so drastically from the principle of party presentation as to
constitute an abuse of discretion" and remanded the case for reconsideration.
(United States v. Sinenene-Smith, 140 S. Ct. 1575 (2020))
Shouldn’t the Eighth Circuit's case be remanded for reconsideration by not
only drastically departing from the principal of party presentation, introducing
clearly erroneous evidence not previously on record, and being in direct conflict of
the United States Supreme Court’s and their own previous rulings?
The court's choices to introduce unsubstantiated conclusions were not only
extremely prejudicial in determining the outcome of the case, but also severely
affected the rights of the petitioner.

2)

It was established in (McDonald v. Chicago, 561 U.S. 742, 780. 130 S.Ct.

3020. 177 L.Ed.2d 894 (2010)) that the Second Amendment guarantee is applicable
to the states via the Fourteenth Amendment and reiterated Heller’s reasoning that
"individual self-defense is ‘the central component * of the Second Amendment
right.” 130 S.Ct. at 3036 (quoting Heller, 554 U.S. at 599. 128 S. Ct. 2783)."
When a state has instituted laws to assure the protection of one’s
constitutional rights and an agent of that state, (Chief of Police), knowingly, and
unnecessarily, denies one’s constitutional right without due process, and continues
to do so after an order from the court to cease said violation, is that not clearly a
Section 42 U.S.C. § 1983 violation?

3)

In consideration of Kimball's Appellate Brief, Statement of Issues for Review,

No. VI. "Did the District Court abuse their discretion by introducing erroneous facts
and arguments not on record and denying Mr. Kimball’s request for Leave to
Amend?", is that notification for, and warrants an abuse of discretion review?

l

>
i

TABLE OF CONTENTS

APPENDIX TABLE OF CONTENTS

l

TABLE OF CITATIONS

m

LIST OF PARTIES

iv

CORPORATE DISCLOSURE

v

OPINIONS BELOW

1

STATEMENT OF THE BASIS FOR THE JURISDICTION

1

CONSTITUTIONAL PROVISIONS AND STATUTES

2

INTRODUCTION and STATEMENT OF CASE

2

PROCEDURAL HISTORY.

6

REASONS FOR GRANTING THE PETITION

7

Abuse of Discretion

7

Standard of Review

12

Section 42 U.S.C. § 1983: 14th and 2nd Amendment Violations

12

CONCLUSION
APPENDIX
APPENDIX TABLE OF CONTENTS
CERTIFICATE OF WORD COUNT
CERTIFICATE OF SERVICE

18

i.

INDEX OF APPENDIX
Appendix A
United States Court Of Appeals Eighth District
case # 20-2188
Opinion
Filed December 09, 2020

A1-A3

Appendix B
United States District Court for the Southern District of Iowa
case # 4:19-cv-00149-SMR-HCA
Opinion
Filed April 14, 2020

B4(l)-B22(18)
Appendix C

United States Court Of Appeals Eighth District
case # 20-2188,
Order- Rehearing En Banc Denial
Filed January 13, 2021

C23(l)

Appendix D
United States Court Of Appeals Eighth District
case # 20-2188,
Order- Judgment Affirmed
Filed December 09, 2020

D24(l)

Appendix E
United States District Court for the Southern District of Iowa
case # 4:19-cv-00149-SMR-HCA
Judgment - Motion To Dismiss Granted
Filed April 15, 2020

E25(l)

i

«
'i'.

Appendix F
In the Iowa District Court For Polk County
case # SPCE083243
Order - Granting Authority To Release Weapon
Filed July 06, 2018

F26(l)-F28(2)
Appendix G

In the Iowa District Court For Polk County
case # 05771ATSMAC376472 (POLK)
Summary Order - Simple Misdemeanor
Filed, June 29, 2018

G29(l).
Appendix H

Warner Robins Georgia Police Incident Report
Case # 2020-0328 - 03/04/2020
March 04, 2020

H30(l)-H32(2)

ll

*
V-

TABLE OF CITATIONS

16

Alvin v. Suzuki. 227 F.3d 107. 116 (3d Cir.2000);
( Castro v. U.S.. 540 U.S. 375, 386-87 (2003)

.11

(Greenlaw v. United States, 554 U. S. 237 (2008) id 243)

7

(Heller v. District of Columbia. 670 F.3d 1244, 1257 (D.C. Cir. 2011
(McDonald v. City of Chicago. 561 U.S. 742, 750 (2010)
(Walters v. Wolf. 660 F.3d 307, 318 (8th Cir. 2011)

13,15,17
15

12,13,14,15,16,17

(United States v. Sinenens-Smith, 140 S. Ct. 1575 (2020)
(Donald Kimball # 05771ATSMAC376472)
(Seized Property of Donald Kimball Case#05771-SPCE083234 - 2018)

8
4,13
11

Second Amendment

2

Fourteenth Amendment

2

42 U.S.C. £ 1983.

5

(Iowa Code 809.5),

13

Altoona City Code § 41.08

10

Warner Robins Police Incident Report Case # 2020-0328 - 03/04/2020

ill

4

£

List of Parties to Proceeding
Donald H. Kimball,
Petitioner,

:

Altoona, IA. Police Department, Chief Greg Stallman (individual)
Respondents.

IV

r
*
t

Corporate Disclosure Statement

Mr. Kimball is an individual and has no corporate affiliations and presently
has no knowledge of any corporations related to, or having interest, in this case.

v

U_

\

PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully requests a writ of certiorari
to review the judgment of the United States Court
of Appeals for the Eighth Circuit.
OPINIONS BELOW
United States Court Of Appeals Eighth District case # 20-2188
OPINION/JUDGMENT of USCA advising the judgment of the district court is
Affirmed as to..) (Entered: 12/09/2020) -Opinion is included herein Appendix A

PER CURIAM OPINION FILED - THE COURT: Duane Benton, Jane Kelly and L.
Steven Grasz (UNPUBLISHED) [4983354] [20-2188] (NDG) [Entered: 12/09/2020
08:22 AM] - Opinion is included herein Appendix B

United States District Court for the Southern District of Iowa case # 4:19-cv-00149SMR-HCA Filed 04/14/20 -Opinion is included herein Appendix C

STATEMENT OF THE BASIS FOR THE JURISDICTION
The Judgment of the Court of Appeals was filed on 12/09/2021
A petition for rehearing en banc was filed on 12/21/2020.
The petition for rehearing en banc was denied on 01/13/2021
Pursuant to U.S. Supreme Court Rule 13(3), writ is timely.
This Court has jurisdiction under 28 U.S.C. § 1254(1).

1

CONSTITUTIONAL PROVISIONS AND STATUTES
Second Amendment - A well regulated Militia, being necessary to the security of
a free State, the right of the people to keep and bear Arms, shall not be infringed

Fourteenth Amendment - Section 1 -All persons born or naturalized in the
United States and subject to the jurisdiction thereof, are citizens of the United
States and of the State wherein they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the United States;
nor shall any State deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal protection of
the laws.

INTRODUCTION and STATEMENT OF THE CASE
The Petitioner, Kimball lives and travels in his motor home throughout the
United States, frequently stopping at truck stops. While in Altoona Iowa, and
because he was a Senior and Veteran, he was targeted by a group of men who travel
the country and rob citizens either by deception or by outright taking, in which they
did to Kimball. Several police departments are aware of this group but have never
been able to catch them and they are also on You Tube.
Kimball was robbed of thirteen hundred dollars and while trying to get his
money back was tackled and assaulted by two men half his age, and twice his size.
Kimball happened to get away long enough to draw his weapon which instantly
saved him from getting assaulted any further. Once the threat was eliminated,

2

Kimball positioned his weapon in a safe and secure manner. During the whole
incident, that was the only time Kimball pointed his weapon at anyone.
During that time someone must have called the police because prior to
Kimball discharging his weapon, they were already on their way and while Kimball
was running towards the Altoona Police, those who robbed him were running away.
The discharge of Kimball's firearm was not towards any persons or structures and
was safely discharged in the ground in the hopes it would stop the perpetrators and
discourage any other attacks.
To summarize, there were a total of six men who were involved. Two ran off
with the money and were still hiding amongst the semi-trucks, one ran and hid in a
row of cars by a hotel, one had gone and got their van, and the two that attacked
Kimball, caught up with the guy with the van and sped off out of the truck stop lot.
Those three in the van were caught on an off ramp by another police department
several towns over while trying to escape.
Kimball had to identify them so he was driven out to where the police had
caught them to make that identification. The Altoona police Department went to
great lengths to protect his identity both during the identification and throughout
the investigation and questioning at the Altoona Police Department.
Kimball was locked in a room, still not having his identity revealed, while the
investigation and questioning went on for hours. Those three men that were
apprehended confessed to gambling and claimed Kimball was also gambling and
that is how he lost the thirteen hundred dollars.

3

Upon ending their investigation, the Altoona Police Department decided to
charge Kimball with a Simple Misdemeanor, discharging a weapon within city
limits. Kimball was shackled and readied for jail while being paraded by the same
guys who robbed and assaulted him, thus revealing his identity which so much
effort was used to keep secret. The men who robbed and assaulted him were allowed
to go free to continue their robbing. The same gang robbed an elderly man of his five
hundred dollar watch in the same fashion that they robbed Kimball. (Warner
Robins. GA. Police Incident Report Case # 2020-0328 - 03/04/2020).
Mr. Kimball spent one night in jail and was released the next morning by a
Judge pursuant to a negotiated plea which.carried a one hundred dollar fine.
(Donald Kimball # 05771ATSMAC376472). The case was disposed of and Kimball
was anxious to leave Altoona and the only thing stopping him was the retrieval of
his weapon. Although he was assured by a Lieutenant that answered the phone
that since the case was disposed of, and no further issues needed to be addressed,
he could make arrangements to pick the weapon up.
When Kimball went to pick up his weapon, Chief Stallman intervened and
told him to keep checking back that it could be a month or so. Kimball had received
no paperwork from the Altoona Police Department upon the seizure of his weapon
and had no directions in how to get it back nor was he informed by anyone of any
continuing investigation.
Monday morning, July 2, 2018, Kimball proceeded to find out how he could
get his weapon back and during that process Kimball learned that Chief Stallman

4

had no legal right to keep it and that the Chief had already been told by his City
Attorney, Larry Handley, to immediately return Kimball’s weapon.
Kimball then opted to appeal to the courts and began the legal procedures to
obtain his seized property in which Kimball discovered that the Altoona Police
Department statutorily failed to properly seize the property and that all of the
required documents and paperwork for seizure and obtaining Mr. Kimball's
property were never generated.
While Kimball was filing the motions and paperwork at the Polk County
Court, he was told that all that was needed for the court to order release of his
weapon back to him was for the City Attorney to email or fax their approval of the
release.
The City Attorney, Heather Handley Cherry was the one that was handling
this case, and although her senior partner Larry Handley told Mr. Kimball that he
had approved immediate release of his weapon upon disposition of the case, it took
threats of legal action in order for Attorney Handley to finally inform the court that
she had no objection to Mr. Kimball receiving his weapon.
After the Iowa District Court for Polk County ordered the release of his
weapon, Chief Stallman still refused to return Kimball’s weapon for a couple of
more weeks and during that time they knowingly knew that it was his only weapon
for self defense and they chose to deprive him having the ability to protect himself
as he had during being robbed and assaulted.

5

PROCEDURAL HISTORY
On June 28, 2018, the Petitioner, Kimball, was arrested for discharging a
weapon within city limits, Altoona Iowa Municipal Code AT/41.08, simple
misdemeanor. On June 29, 2018, Iowa District Court for Polk County, An Order
charging Kimball with simple misdemeanor, one hundred dollar fine.
On May 20, 2019, Kimball filed his Complaint as an original action in the United
States District Court for the Southern District of Iowa. (ECF No. 1). On July 24,
2019, Defendants filed their Rule 12(b)(6) Pre-Answer Motion to Dismiss, along
with supporting Brief. (ECF No. 7, 10). Kimball resisted the Motion to Dismiss on
August 20, 2019. (ECF No. 13-1). On April 14, 2020, the District Court entered its
Order on Defendants’ Motion to Dismiss, which granted the Motion to Dismiss and
dismissed all of Kimball’s claims and denied Kimball’s Motion for Leave to Amend
his complaint. (ECF No. 23). Kimball filed Notice of Appeal along with Motion for
Leave to file forma pauperis on April 24, 202,0 (ECF No.25, ECF No.26). Text Order
granting leave for Kimball to file forma pauperis on June 12, 2020, (ECF No. 28).
Order Affirming District Court Decision on December 09, 2020,(ECF No.32). Order
denying Kimball's request for rehearing en banc on January 13, 2021, (ECF No.33).
Mandate issued on January 21,2021 (ECF No.34).

6

REASONS FOR GRANTING THE PETITION
Abuse of Discretion
The Petition should be granted because the United States District Court for
the Southern District of Iowa stopped being a neutral arbiter and became an
advocate for the Defendants by introducing a clearly erroneous fact. It was an abuse
of discretion.
(“In our adversary system, in both civil and criminal cases, in the first
instance and on appeal, we follow the principle of party presentation. That is, we
rely on the parties to frame the issues for decision and assign to courts the role of
neutral arbiter of matters the parties present. ”) (Greenlaw v. United States. 554
U.S. 237, 243 (2008))
The District Court “departed so drastically from the principle of party
presentation as to constitute an abuse of discretion.” "It has been held that the
courts should be a neutral arbitrator, “in both civil and criminal cases, in the first
instance and on appeal. . ., we rely on the parties to frame the issues for decision
and assign to courts the role of neutral arbiter of matters the parties present.”
(Greenlaw v. United States, 554 U. S. 237 (2008) id 243), and the Supreme Court
just recently upheld that ruling, "The Supreme Court (per Justice Ruth Bader
Ginsburg) unanimously held that the Ninth Circuit’s manner of adjudicating the
appeal “departed so drastically from the principle of party presentation as to
constitute an abuse of discretion.” According to the court, the principle at stake was
that courts should “rely on the parties to frame the issues for decision” and act as

7

Ij

“neutral arbiters of matters the parties present.” " The Court vacated the Ninth
Circuit’s decision and remanded the case for reconsideration.” (United States v.
Sinenens-Smith. 140 S. Ct. 1575 (2020))
Where the Defendants failed to explain the reason that Chief Stallman
refused to give Kimball his weapon beyond that of "Qualified Immunity”
(Defendants District Brief ECF 7 Pg. 30 f 1), the United States District Court for
the Southern District of Iowa stepped in as an advocate for the Defendants and
introduced a clearly erroneous fact that Kimball was being investigated for
attempted murder, and therefore, failing to return the weapon was justified;
however, it is clear and obvious that this fact is completely false and all
information, evidence, communications, and events presented throughout this
litigation by both parties proves it's falsehood and any investigation that was
ongoing was completed when Kimball was sent to jail and the other men were
released.
"Here, there is a “concrete, obvious alternative explanation” that is much
more likely as to why Defendants released the alleged perpetrators—there was
insufficient evidence to detain them any longer or charge them with a crime." ."
(Defendants District Brief Pg. 17 ^ 2), (Defendants Appellate Brief Pg. 17

2),

Attempted murder is a serious Class B Felony which carries up to a 25 Year
prison sentence and Kimball had to intend to murder those who assaulted him and
if that was his intention, he would have done so when he was being assaulted. After
three hours of investigation and questioning by the Altoona Police Department with

8

all parties involved, they concluded that it was not Kimball’s intention and since the
discharging of his weapon caused no damage to personnel or property, he was
charged with Simple Misdemeanor which concluded any further investigation.
"Plaintiff was then transported to the police department where, after
questioning Plaintiff and the men in the van, the decision was made to arrest
Plaintiff for discharging his firearm",(Defendants District Brief ECF 7 Pg. 5 ^ 2),
(Defendants Appellate Brief Pg. 2

2),

"After an investigation, Kimball was arrested and charged with discharging a
firearm in city limits - a violation of Altoona City Code § 41.08." (Defendants
Appellate Brief Pg. ii H 3),
The District Court is relying on a statement Kimball made in his complaint
concerning a heated phone call between Chief Stallman and Kimball when he was
trying to get his weapon returned. For the District Court to interpret that
statement as a confirmation of an ongoing two week attempted murder
investigation is not only far reaching, but is facially absurd.
The correct interpretation of that statement would be exactly as it reads.
Although, speculatively, there might have been an effort by Chief Stallman to
charge Kimball with a more serious crime, however; the player's refusals to
cooperate, made Chief Stallman's efforts unsuccessful.
"Chief Stallman indicated to Mr. Kimball how lucky he was that he didn't get
charged with a more serious crime like attempted murder and explained the only
reason he couldn't charge Mr. Kimball was because of his failed effort to get the two

9

Players he had in custody to cooperate and make those allegations and that they
refused to file anything against Mr. Kimball." (Kimball Complaint ECF 1 K 82),
As the Defendant's statements indicate above any and all investigations and
questions were completed when the perpetrators were released and Kimball was
charged and jailed.
However, further evidence that there was no continuing investigation for
attempted murder; Kimball relies on several conversations with law enforcement,
city attorneys, Iowa criminal investigative agents, and judges, in which none
indicated any ongoing investigation.
"On Friday morning Mr. Kimball went from his cell before Judge Odell
McGhee at the Polk County Jail"(Kimball Complaint ECF 1 U 67)
"Mr. Kimball called the Altoona Police Department to tell them that his case
was disposed of and all fines were paid so therefore he would like to get his driver's
license and weapon back”. (Kimball Complaint ECF 1 f 67)
"The City Attorney, Heather Handley Cherry was the one that was handling
this case, and although her senior partner Larry Handley told Mr. Kimball that he
had approved immediate release of his weapon upon disposition of the case, it took
threats of legal action in order for Attorney Handley to finally inform the court that
she had no objection to Mr. Kimball receiving his weapon"(Kimball Complaint ECF
11177)
Between the Defendant's statements in their briefs, phone calls between
Kimball and the city Attorneys, even Chief Stallman's statement that he tried and

10

failed indicate plainly that there was no continuing investigation and to further
prove that point, let’s rely on common sense.
Would the Altoona Police let Kimball leave town if there was a pending
attempted murder investigation? And the only persons who claim Kimball fired his
weapon towards anyone is the Defendants and the District Court in their opinion,
whereas, the perpetrators even denied Kimball firing at them. Kimball consistently
held that he discharged his weapon in a safe and protective matter at no one or
anything. And finally, would the City Attorney request the Iowa District Court of
Polk County to issue an Order for the return of his weapon. And even then Chief
Stallman defiantly refused to release the weapon to Kimball weeks after he was
ordered by the Iowa District Court Polk County (Seized Property of Donald Kimball
Case #05771-SPCE083234), in which, there was also no indication of an ongoing
investigation.
In conclusion, the District Court; intervention should not have happened. Not
only was the evidence that was introduced clearly erroneous, it was harmful to
Kimball by seriously affecting his substantial rights. The Supreme Court warned
against such an outcome in ( Castro v. U.S.. 540 U.S. 375, 386-87 (2003) (“For the
overriding rule of judicial intervention must be "First, do no harm." The injustice
caused by letting the litigant's own mistake lie is regrettable, but incomparably less
than the injustice of producing prejudice through the court's intervention. ”)

11

Standard of Review
Kimball believes United States Court Of Appeals Eighth District should have
reviewed this case under the abuse of discretion standard instead of the de nova
standard considering it was requested, (Kimball's Appellate Brief, Statement of
Issues for Review No. VI. "Did the District Court abuse their discretion by
introducing erroneous facts and arguments not on record and denying Mr. Kimball's
request for Leave to Amend?")

Section 42 U.S.C. $ 1983: 14th and 2nd Amendment Violations
Kimball's case is identical to (Walters v. Wolf. 660 F.3d 307, 311 (8th Cir.
2011), except for Mr. Kimball was a non-resident and therefore could not replace his
"specific firearm" without undue burden. (Walters v. Wolf. 660 F.3d 307, 318 (8th
Cir. 2011) (“We do not foreclose the possibility that some plaintiff could show that a
state actor violated the Second Amendment by depriving an individual of a specific
firearm that he or she otherwise lawfully possessed for self-defense. However, on
this record, Walters has failed to make such a showing.”)
Mr. Kimball had his pistol exclusively for self protection and this case
exemplifies its importance. Mr. Kimball was being assaulted by two men half his
i

age and twice his size and having his pistol for self protection saved his life, he
>

could have been beaten to death. The 2nd amendments core purpose and right is for
i

self protection. (Walters v. Wolf. 660 F.3d 307, 318 (8th Cir. 2011) "Specifically.
although the Court “d[id] not undertake an exhaustive historical analysis ... of the

12

i

*»

full scope of the Second Amendment,” id. at 626, 128 S.Ct. 2783, it did examine
the Amendment's history extensively, concluding that “all of [the Second
Amendment’s] elements together” coalesce to “guarantee the individual right to
possess and carry weapons in case of confrontation,” id. at 592, 128 S.Ct. 2783,
In McDonald, the Court made this Second Amendment guarantee applicable to the
states via the Fourteenth Amendment and reiterated Heller's reasoning that
“individual self-defense is ‘the central component ’ of the Second
Amendment right.” 130 S.Ct. at 3036 (quoting Heller. 554 U.S. at 599. 128 S.Ct.
2783).”)

Mr. Kimball's weapon was seized by the Altoona Police Department in
violation of Iowa Property Seizure Codes whereas the Defendants failed to take
inventory of the property and failed to give Mr. Kimball a receipt documenting the
seizure of his weapon and Georgia Drivers License.
The Altoona Police seized Mr. Kimball's handgun on June 28, 2018 due to the
Simple Misdemeanor violation of Altoona City code AT/41.08- Discharging
Weapons. See (Case # 05771ATSMAC376472).- Mr. Kimball is also claiming that
the City Code is unconstitutional because it does not provide for the right to Self
Defense pursuant to the 2nd Amendment.
The Case was disposed of the following morning on June 29, 2018. Mr.
Kimball Immediately notified the Altoona Police Department for the return of his
weapon Pursuant to: {Iowa Code 809.5) "Disposition of seized property. 1. Seized
property shall be returned to the owner if the property is no longer required as

13

evidence or the property has been photographed and the photograph will be used as
evidence in lieu of the property, if the property is no longer required for use in an
investigation, if the owner’s possession is not prohibited by law, and if a forfeiture
claim has not been filed on behalf of the state." Upon disposition of Mr. Kimball’s
case he immediately contacted Chief Stallman for the return of his pistol and was
told he would have to wait and check back in a couple of weeks. Chief Stallman gave
Mr. Kimball no definitive answer when he could get his pistol and gave no reason
why he would not return it. After contacting the City Attorney, and although they
recommended returning the pistol, they said it is ultimately up to Chief Stallman.
Mr. Kimball agrees with the Walters' opinion (Walters v. Wolf. 660 F.3d 307,
315 (8th Cir. 2011) (“In reversing the district court's summary judgment, this court
observed that “[t]he pivotal deprivation in this case was not the initial seizure of the
ammunition and weapons, but the refusal to return them without a court order
after it was determined that these items were not contraband or required as
evidence in a court proceeding.” Id. at 843. Based on this observation, this court
concluded that [t]he record establishes that this refusal to return Mr. Lathon's
property was not a random or unauthorized act.”)
As with Walters, Mr. Kimball's seizure ended with the disposition of his case.
(Walters v. Wolf. 660 F.3d 307, 314 (8th Cir. 2011) (“The City's and Chief Wolfs
valid seizure ended with the dismissal of the predicate charges in St. Louis County
and the fugitive warrant in Edmundson County.”)

14

",

Mr. Kimball is a resident of Georgia and has a reciprocating concealed carry
permit. Also his 2nd Amendment rights are fully applicable in Iowa. ”) (McDonald u.
City of Chicago, 561 U.S. 742, 750 (2010) (“we hold that the Second Amendment
right is fully applicable to the States.”) However, because Mr. Kimball is not a
resident of Iowa, he was unable to purchase another pistol to replace his and he had
a job to go to in North Dakota and driving back to Georgia would be a substantial
undue burden. See, (Heller v. District of Columbia. 670 F.3d 1244, 1257 (D.C. Cir.
2011) (“That is, a regulation that imposes a substantial burden upon the core right
of self-defense protected by the Second Amendment must have a strong
justification, whereas a regulation that imposes a less substantial burden should be
proportionately easier to justify. ”)
Chief Stallman had to be aware of what he was doing to Mr. Kimball. Chief
Stallman has been in law enforcement for over 23 years and most likely very
familiar with the 2nd Amendment and the laws of Iowa pertaining to purchasing
and owning a pistol. He knew the pistol he possessed was Mr. Kimball's only
firearm for self protection and he needed it, as evident in this case, and Chief
Stallman knew Mr. Kimball couldn't purchase another one. So, Mr. Kimball was left
defenseless and Chief Stallman had not only trampled on Mr. Kimball's due process
rights, but he also was complicit in violating his 2nd Amendment rights.
With Walters, a purchase of a firearm would only be a minimal burden, if any
burden at all, so the court denied his 2nd Amendment claim, however, with Mr.
Kimball, he is prohibited "from acquiring another weapon" (Walters v. Wolf, 660

15

F.3d 307, 317 (8th. Cir. 2011) (“The court dispensed with his Second
Amendment claim by concluding that the Amendment’s protections were not
implicated because “the ‘right to bear arms’ is not a right to hold some particular
gun” and the plaintiff was not prohibited “horn acquiring another weapon.” Id”)
"The district court, in essence, determined that Walters must do more than
show that the City kept him from possessing one particular firearm to establish a
violation of the Second Amendment; Walters must also show that the City kept bim
from acquiring any other legal firearm. See id”) (“No government official is barring
Plaintiff from obtaining a firearm and none is preventing Plaintiff from availing
himself of the procedure for the return of his firearm. Moreover, no law has been

j
j

cited that infringes upon Plaintiffs right to obtain a firearm .’’See Id)
The State of Iowa is barring Mr. Kimball from obtaining a firearm and Mr.
Kimball did avail himself of the procedure for the return of his firearm by filing an
emergency motion, (Seized Property of Donald Kimball Case#05771-SPCE083234).
See, (Walters v. Wolf,’ 660 F.3d 307, 311 (8th Cir. 2011) (“In order to prevail on a due
process claim, a plaintiff must take advantage of the processes available to him,
unless the processes are unavailable or patently inadequate.” Id. (citing Alvin v.
Suzuki. 227 F.3d 107. 116 (3d Cir.2000);
Mr. Kimball believes the substantial burden the state has put on him to
replace his firearm, and the actions of Chief Stallman, bring claim to his 2nd
Amendment violation, however, this court in Walters confirms, Mr. Kimball's due
process rights have definitely been violated. See, (Walters v. Wolf. 660 F.3d 307, 311

16

(8th Cir. 2011) The Due Process Clause of the Fourteenth Amendment provides that
“[n]o state shall... deprive any person of life, liberty, or property, without due
process of law.” U.S. Const. Amend. XIV, § 1. As the Supreme Court has recognized,
“[procedural due process imposes constraints on governmental decisions which
deprive individuals of ‘liberty5 or ‘property5 interests within the meaning of the Due
Process Clause of the Fifth or Fourteenth Amendment.” All parties concede that
Walters's interest in his handgun and associated ammunition constitute a valid,
constitutionally protected property interest.”)
In Conclusion, as with this case, the Appellant agrees with the this analysis,
(Walters v. Wolf, 660 F.3d 307, 317-18 (8th Cir. 2011) (“We believe Walters's valid
Due Process claim addresses the gravamen of his complaint against the City and
Chief Wolf; Walters seeks a meaningful procedural mechanism for return of his
lawfully seized firearm enabling him to exercise the individual right of self-defense
protected by the Second Amendment.55)
The appellant also agrees with the Plaintiffs in Heller, (Heller v. District of
Columbia. 670 F.3d 1244, 1256 (D.C. Cir. 2011) (“The plaintiffs argue strict scrutiny
is the appropriate standard of review because, in holding the
Fourteenth Amendment made the Second Amendment applicable to the States, the
Court in McDonald described the right “to keep and bear arms [as] among those
fundamental rights necessary to our system of ordered liberty,” 130 S.Ct. at 3042.55

17

CONCLUSION

For the foregoing reasons Mr. Kimball respectfully requests the petition for writ of
certiorari to be granted.

Respectfully submitted,
April 9, 2021
Donald H. Kimball (Pro Se)
4813 Ridge Rd Suite 111-57
Douglasville, Ga. 30134
941-447-8911
dhkprose@gmail.com

18

